Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 QUESTIONABLE BILLING BY 

COMMUNITY MENTAL HEALTH 

        CENTERS 





                    Daniel R. Levinson

                     Inspector General


                      August 2012 

                     OEI-04-11-00100 

EXECUTIVE SUMMARY: QUESTIONABLE BILLING BY COMMUNITY
MENTAL HEALTH CENTERS
OEI-04-11-00100


WHY WE DID THIS STUDY

During 2010, 206 community mental health centers (CMHC) received an estimated
$218.6 million for providing partial hospitalization program (PHP) services to
approximately 25,000 Medicare beneficiaries with mental disorders. Past Office of
Inspector General (OIG) studies have found vulnerabilities in Medicare payments to
CMHCs for PHPs. Additionally, in 2011, four CMHC owners and managers in Miami-
Dade County, Florida, were convicted of fraudulently billing Medicare approximately
$200 million for medically unnecessary PHP services from 2002 to 2010.

HOW WE DID THIS STUDY

We developed nine questionable billing characteristics based on past OIG work and input
from Centers for Medicare & Medicaid Services (CMS) staff. We used 2009 and 2010
Medicare claims from CMS’s National Claims History File to identify CMHCs that had
unusually high billing for at least one of nine OIG questionable billing characteristics in
2010 and the metropolitan areas where these CMHCs were located. We also determined
whether the percentage of CMHCs with questionable billing varied according to whether
States had licensure or certification requirements.

WHAT WE FOUND

In 2010, approximately half of CMHCs met or exceeded thresholds that indicated
unusually high billing for at least one of nine questionable billing characteristics.
Approximately one-third of these CMHCs had at least two of the characteristics.
Additionally, approximately two-thirds of CMHCs with questionable billing were
located in eight metropolitan areas. Finally, 90 percent of CMHCs with questionable
billing were located in States that do not require CMHCs to be licensed or certified.

WHAT WE RECOMMEND

We recommend that CMS (1) increase its monitoring of CMHCs’ Medicare billing and
fraud prevention controls, (2) enforce the requirement that certifying physicians be listed
on the PHP claims submitted by CMHCs, (3) finalize and implement the proposed
conditions of participation for CMHCs, and (4) review and take appropriate action
against CMHCs with questionable billing that we identified. CMS concurred with all
four recommendations.
TABLE OF CONTENTS

         Objectives ....................................................................................................1 

         Background ..................................................................................................1 

         Methodology ................................................................................................6 

         Findings......................................................................................................13 

                    In 2010, approximately half of CMHCs had questionable
                    billing .............................................................................................13 

                    Approximately two-thirds of CMHCs with questionable billing 

                    were located in eight metropolitan areas .......................................16 

                    Ninety percent of CMHCs with questionable billing were in 

                    States that do not require CMHCs to be licensed or certified........17 

         Conclusion and Recommendations ............................................................19 

                    Agency Comments and Office of Inspector General Response.....21 

         Appendixes ................................................................................................22 

                    A: Number of Community Mental Health Centers and Medicare 

                    Payments in Each State, 2010 ........................................................22 

                    B: Healthcare Common Procedure Coding System Codes Used 

                    on Partial Hospitalization Program Claims....................................23 

                    C: Number of Beneficiaries With Cognitive Disorders Who 

                    Participated in Partial Hospitalization Programs, 2010 .................24 

                    D: Percentage of Community Mental Health Centers With 

                    Questionable Billing by Metropolitan Area and Characteristic, 

                    2010................................................................................................25 

                    E: Agency Comments ....................................................................26 

                    Acknowledgments ..........................................................................30 

                   OBJECTIVES
                          1.	 To identify questionable billing by community mental health
                              centers (CMHC) in 2010.
                          2.	 To determine the extent to which questionable billing by CMHCs
                              varied by geographic location and the existence of State licensure
                              or certification requirements.

                   BACKGROUND
                   The Omnibus Budget Reconciliation Act of 1990 authorized Medicare
                   Part B to reimburse CMHCs for providing partial hospitalization programs
                   (PHP).1 PHPs are intense, structured, outpatient mental health treatment
                   programs.2 A CMHC provides PHPs for individuals with mental illness
                   who reside in or near the community where the CMHC is located.3
                   During 2010, 206 CMHCs received an estimated $218.6 million for
                   providing PHP services to approximately 25,000 Medicare beneficiaries.
                   Past Office of Inspector General (OIG) studies found vulnerabilities in
                   Medicare payments to CMHCs, such as billing for medically unnecessary
                   or undocumented PHP services.4 Additionally, four CMHC owners and
                   managers in Miami-Dade County, Florida, were convicted of Medicare
                   fraud in 2011. These individuals manipulated patients’ charts, diagnoses,
                   and lengths of stay to fraudulently bill Medicare approximately
                   $200 million for medically unnecessary PHP services from 2002 to 2010.5
                   This fraud scheme involved doctors, other providers, and marketers who
                   referred Medicare beneficiaries to these CMHCs and received financial
                   kickbacks.




                   1
                       The Omnibus Budget Reconciliation Act of 1990, P.L. 101-508, § 4162.
                   2
                       Social Security Act, § 1861(ff)(3)(A), 42 U.S.C. § 1395x(ff)(3)(A).
                   3
                     Social Security Act, § 1861(ff)(3)(B)(i)(I); Public Health Service Act, § 1913(c)(1); Centers
                   for Medicare & Medicaid Services (CMS), Medicare State Operations Manual, Pub. No. 100-
                   07, ch. 2, § 2252I; CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15,
                   § 15.4.1.1.A.
                   4
                    OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; OIG, Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   5
                    Department of Justice (DOJ), Owner of Miami-area mental health care corporation
                   convicted on all counts for orchestrating $205 million Medicare fraud scheme. Accessed at
                   http://www.justice.gov/opa/pr/2011/August/ on August 23, 2011.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                        1
                   PHP Services and Requirements
                   Beneficiaries who participate in PHPs must have mental disorders that
                   severely interfere with multiple areas of their daily lives, including social,
                   vocational, and/or educational functioning.6 PHPs provide outpatient
                   services to beneficiaries who have been discharged from inpatient
                   psychiatric care. Beneficiaries can thus participate in PHPs in a
                   community setting in lieu of continued inpatient care. PHPs also provide
                   outpatient services to beneficiaries with mental disorders whose
                   physicians certify that they would relapse or require hospitalization in the
                   absence of PHPs.7, 8 Additionally, Medicare beneficiaries may participate
                   in PHPs only if services
                          	 are reasonable and necessary for the diagnosis or active treatment
                             of the individuals’ conditions and
                          	 are reasonably expected to improve or maintain the individuals’
                             conditions.9
                   PHPs must offer a combination of individual, group, family, occupational,
                   and activity therapies. Educational and diagnostic services may also be
                   provided.10 There are no specific limits on the length of time that
                   Medicare covers PHPs.11 However, participating beneficiaries must
                   receive a minimum of 20 hours of services weekly.12 Additionally, PHP
                   beneficiaries must be able to cognitively participate in these services.13
                   PHPs are not medically reasonable or necessary for beneficiaries who
                   cannot actively participate because of a cognitive disorder, such as
                   Alzheimer’s disease or severe dementia.14 
                   Physicians must develop an individualized treatment plan for each PHP
                   beneficiary, which includes treatment goals and describes the coordinated


                   6
                       CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.
                   7
                    42 CFR § 410.43(a)(3), 42 CFR § 424.24(e), CMS, Medicare Benefit Policy Manual, Pub. 

                   No. 100-02, ch. 6, §§ 70.3.B.1 and 70.3B.5. 

                   8
                    The national provider identifier for the certifiying physician is required on PHP claims. 

                   CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 25, § 75.5. 

                   9
                        Social Security Act, § 1861(ff)(2), 42 U.S.C. § 1395x(ff)(2). 

                   10
                     Social Security Act, § 1861(ff)(2), 42 U.S.C. § 1395x(ff)(2); 42 CFR § 410.43(a)(4); CMS, 

                   Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.2. 

                   11
                        CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.1.C.3. 

                   12
                        CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.

                   13
                        Ibid.
                   14
                      42 CFR § 410.43(c)(7); CMS, Medicare Benefit Policy Manual, Pub. No. 100-02,
                   ch. 6, § 70.3.B.1.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                         2
                   services that will be provided.15 The plan must include the type, amount,
                   duration, and frequency of services.16 The plan should also document
                   continued efforts to restore the beneficiary to a higher level of functioning
                   to permit discharge from the PHP. The plan must also demonstrate the
                   continued need for PHP services to maintain the individual’s condition and
                   prevent relapse or hospitalization.17
                   Additionally, physicians must supervise PHP services and periodically
                   evaluate beneficiaries to ensure that their treatment goals are being met.
                   Physicians are required to recertify beneficiaries’ need for PHP services
                   18 days after their admissions and at least every 30 days thereafter.18
                   Oversight of Medicare Participation and Billing by CMHCs
                   The Medicare program has limited ability to oversee the quality, health,
                   and safety of care provided in CMHCs because these providers do not
                   have conditions of participation (CoP). CoPs are standards that help
                   ensure the quality and safety of Medicare and Medicaid providers’ care.19
                   However, in 2011, CMS proposed a rule to establish CoPs for CMHCs and
                   noted that “there are currently only limited circumstances in which CMS
                   can terminate a facility based on the result of a complaint investigation.
                   Without CoPs in place, CMS’ oversight of CMHCs is severely limited.”20
                   Additionally, CMHCs are not required to be accredited by an accreditation
                   agency or licensed or certified by their States.21 This is unlike CMS’s
                   oversight of other providers, such as hospitals and long-term-care
                   facilities.
                   CMS Oversight of CMHCs. CMS regional offices are responsible for
                   approving or denying CMHCs for Medicare participation. A regional
                   office conducts one site visit to a CMHC when notified by a Medicare
                   Administrative Contractor (MAC) that a CMHC has applied for Medicare
                   enrollment and has been in operation for an entire business quarter.22

                   15
                      42 CFR § 424.24(e)(2); CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, 

                   ch. 6, § 70.3.B.5.c. 

                   16
                      42 CFR § 424.24(e)(2).

                   17
                        CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.5.c.
                   18
                        CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.5.b.
                   19
                      CMS has developed CoPs for 19 provider types, including home health agencies,
                   psychiatric hospitals, and long-term-care facilities. CMS, Conditions for Coverage and
                   Conditions of Participation. Accessed at http://www.cms.gov/CFCsAndCoPs/ on June 17,
                   2011.
                   20
                        76 Fed. Reg. 35684 (June 17, 2011).
                   21
                     Government Accountability Office (GAO), Medicare: Lessons Learned From HCFA’s
                   Implementation of Changes to Benefits, GAO-HEHS-0031, January 2000.
                   22
                        CMS, Medicare State Operations Manual, Pub. No. 100-07, ch. 2, §§ 2250G and 2252.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                   3
                   However, in the proposed rule to establish CoPs, CMS noted that many
                   “CMHCs have never had an onsite survey visit by CMS” after initial
                   certification.23, 24
                   CMS contracts with MACs and Zone Program Integrity Contractors
                   (ZPIC) to help ensure the financial integrity of Medicare payments,
                   including those to CMHCs. MACs are responsible for ensuring correct,
                   reliable, and timely payment of claims.25 They implement claims
                   processing edits to prevent improper payments, educate providers that
                   make improper claims, and collect overpayments.
                   ZPICs ensure that Medicare funds are appropriately paid and that any
                   improper payments are identified. They proactively identify potential
                   fraud; investigate allegations of fraud; initiate administrative actions to
                   deny or suspend payments where there is evidence of fraud; refer cases to
                   OIG for criminal and civil investigation; and refer cases to CMS for
                   administrative actions, including provider revocations.26
                   Additionally, CMS ensures the financial integrity of Medicare payments
                   through its predictive analytics system. In June 2011, CMS implemented
                   a predictive analytics system that analyzes all Medicare Parts A and B
                   claims to identify potential fraud.27 This system builds profiles of
                   Medicare providers (e.g., CMHCs) that enable CMS to create risk
                   scores.28 These risk scores estimate the likelihood of fraud and identify
                   potentially fraudulent claims and billing patterns.
                   State Oversight of CMHCs. CMHCs must meet applicable State licensing
                   or certification requirements to participate in Medicare; however, not all
                   States have such requirements.29 The goal of State licensure or
                   certification is to ensure that health care providers meet minimum State
                   standards of quality and safety. States that require CMHCs to be licensed



                   23
                        76 Fed. Reg. 35685 (June 17, 2011). 

                   24
                      We did not verify whether CMS conducted onsite survey visits prior to CMHCs’ Medicare 

                   enrollment. Currently, OIG is conducting a study on CMS’s and contractors’ CMHC

                   oversight activities. OEI-04-11-00101, in progress.

                   25
                        CMS, Part A and Part B MAC Statement of Work Jurisdiction F, October 2010. 

                   26
                        CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.2.2.

                   27
                      CMS, Predictive Modeling Analysis of Medicare Claims, MLN Network, November 2011. 

                   Accessed at https://www.cms.gov/MLNMattersArticles/Downloads/SE1133.pdf on February
                   27, 2012. 

                   28
                     The predictive analytics system also builds profiles on networks, billing patterns, and 

                   beneficiary utilization. 

                   29
                        42 CFR § 410.2.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                        4
                   or certified conduct regular site visits to ensure CMHCs’ compliance with
                   State requirements.30
                   Medicare Conditions of Participation and Accreditation. CMS can
                   implement quality standards, such as CoPs, that providers must meet to
                   participate in Medicare.31 CMHCs do not currently have CoPs, but CMS
                   proposed six CoPs for CMHCs in June 2011, which are expected to be
                   implemented in 2014.32 Implementation of these CoPs will authorize CMS
                   to conduct regular CMHC site visits to verify compliance.33
                   Upon implementation of CoPs, CMS may also verify compliance with
                   CoPs by using State survey and certification agencies or by granting
                   deeming authority to accreditation organizations.34 A provider seeking
                   accreditation must submit an application to an accrediting organization
                   and is subject to unannounced site visits. Using the application and site
                   visit results, the accrediting organization determines whether to accredit
                   the provider.35 Accreditation is required for certain Medicare providers,
                   such as durable medical equipment suppliers.36 However, CMS currently
                   does not have the statutory authority to grant deeming authority to
                   accreditation organizations for CMHCs. Therefore, these providers are
                   not subject to accreditation requirements.37
                   Related OIG Work
                   In 1998, OIG found that in a 12-month period, Medicare paid $229 million
                   for unallowable and highly questionable PHP services provided by


                   30
                     The frequency of site visits varies by State. Site visits may be required yearly, biennially,
                   every 3 years, etc.
                   31
                        42 CFR part 485.
                   32
                      The six proposed CoPs are personnel qualifications; client rights; admission, initial
                   evaluation, comprehensive assessment, and discharge or transfer of the client; treatment team,
                   client-centered active treatment plan, and coordination of services; quality assessment and
                   performance improvement; and organization, governance, administration of services, and
                   partial hospitalization services. 76 Fed. Reg. 35684–35711 (June 17, 2011).
                   33
                        Ibid.
                   34
                     Having deeming authority means being able to officially determine whether a facility is in
                   compliance with Medicare and Medicaid requirements. Social Security Act §1865(a)(1), 42
                   CFR 488.6, 76 Fed. Reg. 35685 (June 17, 2011).
                   35
                      CMS, DMEPOS Accreditation Presentation. Accessed at
                   http://www.cms.gov/MedicareProviderSupEnroll/downloads/DMEPOSAccreditationPresentat
                   ion.pdf on March 20, 2012.
                   36
                      The Medicare Improvements for Patients and Providers Act of 2008, P.L. 110-275
                   § 154(b)(1), required all durable medical equipment, prosthetics, orthotics, and suppliers to
                   meet quality standards for Medicare accreditation by October 1, 2009.
                   37
                     A statutory change is required to use accreditation organizations to verify CMHCs’
                   compliance with CoPs.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                            5
                   14 CMHCs in 5 States. Through medical record review, OIG found that
                   91 percent (4,959 of 5,431) of the PHP services reviewed did not meet
                   Medicare requirements for reimbursement because: (1) the beneficiaries
                   were ineligible for services, (2) services were not medically reasonable or
                   necessary for the beneficiaries’ condition, (3) services were not properly
                   authorized by or furnished under the supervision of physicians, or
                   (4) services were not adequately documented.38 Additionally, OIG found
                   that 60 percent of all States do not require CMHCs to be licensed or
                   certified.39 This creates a vulnerability whereby dishonest individuals
                   have an opportunity to establish CMHCs and improperly bill Medicare for
                   PHP services.
                   In 1999, OIG assessed the appropriateness of Medicare payments for
                   mental health services provided in practitioners’ offices, CMHCs,
                   beneficiaries’ homes, and custodial care facilities.40 Of the 303 medical
                   records reviewed, 22 percent revealed that beneficiaries received mental
                   health services beyond what was medically reasonable and necessary.
                   Further, these excessive mental health services were often provided in
                   beneficiaries’ homes or by CMHCs.41
                   OIG is conducting a study on the extent to which CMS and its contractors
                   performed oversight activities to detect and deter fraudulent CMHC
                   billing.42

                   METHODOLOGY
                   We analyzed Medicare PHP claims submitted by all 206 CMHCs in
                   2010.43 We also analyzed claims from CMS’s National Claims History
                   Carrier (i.e., physician) and Inpatient Standard Analytical Files (i.e.,
                   inpatient) from 2009 and 2010.44 We used the beneficiaries’ Health
                   Insurance Claim Numbers to associate their 2009 and 2010 physician and

                   38
                     OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; OIG, Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   39
                        Ibid.
                   40
                     Mental health services include PHP services such as group, individual, and family therapy.

                   Medicare pays CMHCs only for PHP services.

                   41
                        OIG, Medicare Part B Payments for Mental Health Services, OEI-03-99-00130, May 2001. 

                   42
                        OEI-04-11-00101, in progress. 

                   43
                     We identified Medicare PHP claims submitted by CMHCs in CMS’s National Claims

                   History Outpatient file with bill type 76, indicating that the claim was for PHP services. We
                   excluded three CMHCs with a Medicare reimbursement amount of $0 in 2010.
                   44
                      We identified these claims in the Medicare physician National Claims History file with
                   place of service code 53, indicating the service was provided at a CMHC.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                          6
                   inpatient claims with their 2010 PHP claims. These claims were used to
                   identify diagnoses and gather information about the types of services
                   beneficiaries received that were not on the PHP claims.
                   We matched National Provider Identifiers in the National Plan and
                   Provider Enumeration System and on the PHP claims to obtain addresses
                   for each CMHC. Only 25 States have CMHCs that receive Medicare
                   payments.45 See Appendix A for the amount of Medicare payments made
                   to CMHCs in each of those States. Additionally, we used CMS’s 2010
                   Enrollment Database to obtain addresses for each beneficiary who
                   received PHP services at a CMHC in 2010.
                   Finally, we reviewed State health facility licensing and mental health
                   department Web sites and contacted State officials in these departments to
                   determine which States require CMHCs to be licensed or certified.
                   Identification of CMHCs With Questionable Billing
                   We first identified all Medicare PHP claims submitted by CMHCs with
                   dates of service ending in 2010. We identified 273,561 claims billed by
                   206 CMHCs. We also identified all Medicare physician and inpatient
                   claims with dates of service ending in 2009 and 2010. We identified
                   5.3 million physician claims and 71,602 inpatient claims submitted for the
                   24,703 beneficiaries who participated in PHPs at CMHCs.
                   Based on past OIG work and input from CMS staff familiar with
                   fraudulent PHP billing by CMHCs, we developed nine CMHC
                   questionable billing characteristics.
                   To ensure reliability of the analysis of each characteristic, we focused our
                   analysis of questionable billing on CMHCs that had at least five
                   beneficiaries and were paid at least $10,000 for PHP services in 2010.
                   Eleven of the 206 CMHCs did not meet these criteria. In total, 195
                   CMHCs were included in this analysis. We calculated the percentage of
                   beneficiaries at each CMHC with each questionable billing characteristic.
                   We considered a CMHC’s billing to be unusually high, or questionable, on
                   a characteristic if the percentage of beneficiaries was greater than the 75th
                   percentile plus 1.5 times the interquartile range.46 The nine characteristics
                   are described below:
                   1.	 Beneficiaries who received only group psychotherapy during their
                       PHP participation. PHPs must offer a combination of services to treat

                   45
                      CMHCs were located in 24 States and 1 U.S. territory (Puerto Rico). Hereinafter we refer
                   to the 24 States and Puerto Rico collectively as States.
                   46
                     This is a standard exploratory method for identifying members of a population with
                   unusually high values on a given statistic compared to the rest of the population when no
                   benchmarks exist. See J.W. Tukey, Exploratory Data Analysis, Addison-Wesley, 1977.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                        7
                         beneficiaries’ mental health conditions. Past OIG studies found that
                         beneficiaries in CMHCs were likely to receive more group
                         psychotherapy sessions than necessary.47 Further, CMHCs that
                         provide exclusively group psychotherapy to beneficiaries may be
                         billing for services that are not medically necessary or therapeutic. We
                         identified CMHCs with questionable billing based on the percentage
                         of beneficiaries in each CMHC that had claims indicating only group
                         psychotherapy, Healthcare Common Procedure Coding System
                         (HCPCS) codes G0410 and G0411. See Appendix B for a list of
                         services and the accompanying HCPCS codes used on PHP claims.
                   2.	 Beneficiaries who were not referred to PHPs by health care facilities.
                       Beneficiaries admitted to PHPs must be under the care of physicians
                       who certify the need for PHP services.48 Beneficiaries who present
                       themselves (i.e., are not referred by health care facilities) to the
                       CMHCs with orders from the physicians raise questions about whether
                       they were evaluated by physicians and eligible for PHP services.
                       Additionally, past OIG studies have found that some beneficiaries
                       were not certified by physicians to participate in PHPs.49 We
                       identified CMHCs with questionable billing based on the percentage
                       of beneficiaries in each CMHC with referral code 1 on their PHP
                       claims, indicating that the beneficiaries presented themselves to
                       CMHCs, rather than being transferred from health care facilities.
                   3.	 Beneficiaries who were not evaluated by physicians during their PHP
                       participation. Physicians must develop an individualized treatment
                       plan for each beneficiary receiving PHP services, which includes
                       treatment goals and describes the coordinated services that will be
                       provided through the PHP. Physicians must also supervise the delivery
                       of PHP services and periodically evaluate beneficiaries to ensure that
                       their treatment goals are being met. Past OIG studies have found that
                       the medical records of PHP beneficiaries lacked physician evaluations,
                       signed plans of care, orders for services, and/or physician progress
                       notes.50 We identified CMHCs with questionable billing based on the
                       percentage of beneficiaries in each CMHC that did not have PHP or


                   47
                        OIG, Medicare Part B Payments for Mental Health Services, OEI-03-99-00130, May 2001.
                   48
                     42 CFR § 410.43(a)(3), 42 CFR § 424.24(e), CMS, Medicare Benefit Policy Manual, Pub.
                   No. 100-02, ch. 6, §§ 70.3.B.1 and 70.3B.5.
                   49
                     OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; OIG, Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   50
                        Ibid.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                   8
                          physician claims indicating professional services by a physician during
                          their PHP participation in 2010.51
                   4.	 Beneficiaries with no mental health diagnoses a year prior to
                       participating in PHPs. Beneficiaries must have mental health
                       disorders that severely interfere with multiple areas of their daily lives,
                       including social, vocational, and/or educational functioning. Past OIG
                       studies have found, and recent convictions of CMHC owners and
                       managers have illustrated, that beneficiaries with no prior histories of
                       mental disorders often received PHP services that were not medically
                       reasonable or necessary.52, 53 The absence of records of prior inpatient
                       treatment or physician visits for mental disorders raises concerns about
                       whether PHP services were medically reasonable or necessary. We
                       used 2009 and 2010 physician and inpatient claims data to determine
                       whether each beneficiary receiving PHP services at a CMHC had a
                       mental health diagnosis on other Medicare claims prior to receiving
                       PHP services in 2010. We identified CMHCs with questionable billing
                       based on the percentage of beneficiaries in each that did not have a
                       mental health diagnosis between January 1, 2009, and their first date
                       of PHP service in 2010.
                   5.	 Beneficiaries who participated in PHPs at CMHCs outside their
                       communities. Past OIG work identified concerns regarding PHP
                       services provided to Medicare beneficiaries outside their communities.
                       Beneficiaries who participate in PHPs outside their communities raise
                       concerns about CMHCs’ obtaining beneficiary Medicare numbers and
                       billing for services that were not provided or providing PHP services
                       that were not medically reasonable or necessary. We determined the
                       threshold for excessive distances from the CMHC to be 102 miles.54
                       We then identified CMHCs with questionable billing based on the
                       percentage of beneficiaries who resided more than 102 miles away.




                   51
                      We used physician claims because the professional services of physicians, such as
                   psychological assessments and medication management, are not paid as PHP services. Claims
                   for professional services are submitted and paid separately.
                   52
                     OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; OIG, Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   53
                        DOJ, op. cit.
                   54
                      We determined this distance by using a standard exploratory method for identifying
                   members of a population with unusually high values on a given statistic compared to the rest
                   of the population when no benchmarks exist. See J.W. Tukey, Exploratory Data Analysis,
                   Addison-Wesley, 1977.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                         9
                   6.	 Beneficiaries who participated in PHPs at more than one CMHC.
                       OIG data analysis indicates that the majority (86 percent) of PHP
                       beneficiaries receive services at one CMHC.55 Therefore, a high
                       percentage of beneficiaries who participated in PHPs at more than one
                       CMHC may indicate that providers have worked together to share
                       beneficiaries. Sharing beneficiaries is a common fraud scheme and
                       may involve cooperation between managers, physicians, and marketers
                       to solicit beneficiaries or beneficiary Medicare numbers.56
                       Beneficiaries who participate in PHPs at more than one CMHC also
                       raise concerns about whether the PHP services were provided and
                       were medically reasonable and necessary. We identified CMHCs with
                       questionable billing based on the percentage of beneficiaries in each
                       CMHC that participated in PHPs at more than one CMHC.
                   7.	 Beneficiaries with cognitive disorders who participated in PHPs.
                       PHPs are not medically reasonable or necessary for beneficiaries who
                       cannot actively participate because of cognitive disorders, such as
                       Alzheimer’s disease or severe dementia. Past OIG studies and recent
                       convictions of CMHC owners and managers have shown that
                       beneficiaries with Alzheimer’s disease or severe dementia were
                       receiving PHP services at some CMHCs.57, 58 Using 2010 physician
                       and inpatient claims, we identified beneficiaries with cognitive
                       disorders who participated in PHPs. See Appendix C for the the
                       diagnosis codes and associated descriptions. We identified CMHCs
                       with questionable billing based on the percentage of beneficiaries in
                       each CMHC with these diagnosis codes.
                   8.	 Beneficiaries with long durations of PHP participation. There are no
                       specific limits on the length of time that Medicare covers PHPs.
                       CMHC owners and managers have been convicted of Medicare fraud
                       for abusing the ability to bill for PHPs for long periods of time. These
                       individuals manipulated the length of beneficiaries’ stays to maximize
                       the number of days Medicare would pay for PHP. We determined the




                   55
                        OIG 2010 Medicare PHP claims data.
                   56
                     CMHC owners and managers, physicians, marketers, and other providers have been
                   convicted of Medicare fraud for working together to solicit beneficiaries to attend CMHCs.
                   DOJ, op. cit.
                   57
                     OIG, Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; OIG, Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   58
                        DOJ, op. cit.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                       10
                          threshold for a long duration of PHP participation to be 147 days.59
                          We then identified CMHCs with questionable billing based on the
                          percentage of beneficiaries who received over 147 days of PHP
                          services from the CMHCs.
                   9.	 Beneficiaries who were readmitted to inpatient treatment. Medicare
                       beneficiaries are eligible for participation in PHPs only if services will
                       prevent relapse or hospitalization. The relapse of a severely mentally
                       ill beneficiary might be unavoidable, but a high percentage of
                       beneficiaries readmitted to inpatient treatment after receiving PHP
                       services at a CMHC raises concerns because PHPs are intended to
                       prevent relapse and hospitalization. Additionally, as shown by past
                       OIG work, CMHCs may discharge beneficiaries to inpatient treatment
                       and then readmit them to avoid questions about lengths of stay. Using
                       2010 PHP and inpatient claims, we identified beneficiaries who were
                       readmitted to inpatient treatment after PHP services and then returned
                       to the CMHCs.60 We identified CMHCs with questionable billing
                       based on the percentage of beneficiaries who were readmitted to
                       inpatient treatment and then returned to the CMHCs.
                   Geographic Analysis of CMHCs With Questionable Billing
                   We determined whether CMHCs with questionable billing were
                   concentrated in certain metropolitan areas.61 To do this, using each
                   CMHC’s address, we first identified each CMHC’s Core Based Statistical
                   Area (CBSA). A CBSA is a region around an urban center that has at least
                   10,000 people.62 CBSAs may be categorized as metropolitan or
                   micropolitan. We determined the total number of CMHCs in each
                   metropolitan area and the number of CMHCs that had questionable


                   59
                      We established this duration of stay by using a standard exploratory method for identifying
                   members of a population with unusually high values on a given statistic compared to the rest
                   of the population when no benchmarks exist. See J.W. Tukey, Exploratory Data Analysis,
                   Addison-Wesley, 1977.
                   60
                      We identified beneficiaries who were in inpatient stays with mental health diagnoses, were
                   discharged to CMHCs within 2 days, and were then readmitted to inpatient treatment with
                   mental health diagnoses within 2 days of discharge from the CMHCs. We also identified
                   beneficiaries who were receiving PHP services and were admitted to inpatient treatment with
                   mental health diagnoses within 2 days of discharge from CMHCs, then readmitted to the
                   CMHCs within 2 days of discharge from inpatient treatment.
                   61
                      We used census data and each CMHC’s address to identify the metropolitan area of each.
                   A “metropolitan area” is defined as a core urban area with a population of 50,000 people or
                   more. A “micropolitan area” is defined as a core urban area with a population of at least
                   10,000, but fewer than 50,000 people. U.S. Census Bureau, Metropolitan and Micropolitan
                   Definition Files. Accessed at http://www.census.gov/population/metro/data/def.html on
                   January 10, 2012.
                   62
                        Ibid.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                     11
                   billing.63 We then calculated the percentage of CMHCs that had
                   questionable billing in each metropolitan area.
                   State Licensure or Certification Analysis of CMHCs With
                   Questionable Billing
                   We reviewed State health facility licensing and mental health department
                   Web sites and contacted State officials in these departments to determine
                   whether their States require CMHCs to be licensed or certified. We
                   determined whether questionable billing by CMHCs varied according to
                   whether States had licensure or certification requirements for CMHCs.
                   We analyzed the total number of CMHCs and the number of CMHCs that
                   had questionable billing based on license or certification requirements.
                   Limitations
                   The findings in this report are based on our analysis of PHP claims
                   submitted during 2010 and cannot be generalized to any other period.
                   The nine questionable billing characteristics included in our analysis are
                   not intended to be a comprehensive set of characteristics for identifying
                   Medicare CMHC questionable billing. Additionally, while the presence of
                   these characteristics raises questions about the appropriateness of the PHP
                   claims submitted by CMHCs, we did not conduct a medical record review
                   to determine whether the services billed by CMHCs were inappropriate or
                   fraudulent.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   63
                      CMHCs were located in 54 metropolitan areas. To ensure reliability of the geographic
                   analysis, we excluded all micropolitan areas and metropolitan areas that did not have at least
                   three CMHCs.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                       12
                   FINDINGS
                   In 2010, approximately half of CMHCs had
                   questionable billing
                   In 2010, 102 of 195 (52 percent) CMHCs met or exceeded the threshold
                   that indicated unusually high billing for at least 1 of 9 questionable billing
                   characteristics.
                   Approximately one-third of the CMHCs with questionable billing met or
                   exceeded the thresholds for multiple characteristics we developed.
                   Specifically, 33 CMHCs met or exceeded the thresholds for 2 or more
                   characteristics, and 2 CMHCs met or exceeded the thresholds for
                   4 characteristics. None of the CMHCs met or exceeded the thresholds on
                   more than four characteristics. See Table 1 for the number and percentage
                   of CMHCs by the number of questionable billing characteristics.

                        Table 1: Number and Percentage of Questionable Billing Characteristics
                        for Which CMHCs Met or Exceeded Unusually High Billing Thresholds,
                        2010
                         Number of Questionable                    Number of
                         Billing Characteristics                     CMHCs            Percentage of CMHCs
                         0                                               93                           48%
                         1                                               69                           35%
                         2                                               25                           13%
                         3                                                 6                           3%
                         4                                                 2                           1%
                           Total                                        195                          100%
                        Source: OIG analysis of 2010 Medicare PHP, physician, and inpatient claims.

                   For each questionable billing characteristic, Table 2 shows the median
                   among all CMHCs, the range of unusually high billing, and the number of
                   CMHCs with unusually high billing. Additionally, Table 2 includes the
                   threshold for each characteristic that indicated questionable billing.64




                   64
                      We determined these thresholds by using a standard exploratory method for identifying
                   members of a population with unusually high values on a given statistic compared to the rest
                   of the population when no benchmarks exist. See J.W. Tukey, Exploratory Data Analysis,
                   Addison-Wesley, 1977.

Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                     13
Table 2: CMHCs With Unusually High Billing by Questionable Billing Characteristic, 2010
                                                                                     CMHCs With Unusually High Billing**
                                                                   Median                                            Number
                                                                 Among All                                               of
Questionable Billing Characteristic                               CMHCs*           Threshold    Range of Billing     CMHCs
Beneficiaries who received only group
psychotherapy during their PHP participation                          0 percent        6 percent         6 to 100 percent             43
Beneficiaries who were not referred to PHPs by
health care facilities                                                0 percent        9 percent        10 to 100 percent             35
Beneficiaries who were not evaluated by physicians
during their PHP participation                                        2 percent      13 percent          15 to 72 percent             21
Beneficiaries with no mental health diagnoses prior
to participating in PHPs                                              1 percent      10 percent          10 to 24 percent             16
Beneficiaries who participated in PHPs at CMHCs
outside their communities                                             2 percent      15 percent          15 to 72 percent             15
Beneficiaries who participated in PHPs at more than
one CMHC                                                             16 percent      66 percent          66 to 97 percent              5
Beneficiaries with cognitive disorders who
participated in PHPs                                                 12 percent      40 percent          40 to 50 percent              4
Beneficiaries with long durations of PHP participation                1 percent      44 percent          46 to 50 percent              3
Beneficiaries who were readmitted to inpatient
treatment                                                            10 percent      29 percent          30 to 55 percent              3
  Total***                                                                                                                           102
* The median (i.e., the 50th percentile) indicates that half of all CMHCs were equal to or fell below this value.

** We considered a CMHC’s billing to be unusually high if it was greater than the 75th percentile plus 1.5 times the interquartile 

range.

*** The columns do not sum to the totals because some CMHCs met or exceeded the threshold for more than one characteristic. 

Source: OIG analysis of 2009 and 2010 Medicare PHP, physician, and inpatient claims. 

                       
                      In 2010, 43 CMHCs had unusually high percentages of
                      beneficiaries who received only group psychotherapy during
                      their PHP participation
                      CMHCs that provide only group psychotherapy raise concern because
                      PHPs must offer a combination of services. Further, the CMHCs may be
                      billing for group psychotherapy that is not medically necessary or
                      therapeutic. The percentages of beneficiaries who received only group
                      psychotherapy during their PHP participation at these 43 CMHCs ranged
                      from 6 to 100 percent. At over one-third of these CMHCs (15 of 43),
                      more than 50 percent of beneficiaries received only group psychotherapy.
                      In 2010, 35 CMHCs had unusually high percentages of
                      beneficiaries who were not referred to PHP by health care
                      facilities
                      Beneficiaries must have been under the care of physicians who certified
                      the need for PHPs before they can receive such services. However,
                      beneficiaries who present themselves (i.e., were not referred by health care
                      facilities) to the CMHCs may have no record of PHP certification. A high
                      percentage of beneficiaries who present themselves to the CMHCs with
                      orders from physicians raises questions about whether they were evaluated
                      by physicians and eligible for PHP services. The percentages of such

Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                                           14
                   beneficiaries at these CMHCs ranged from 10 to 100 percent. At over half
                   of these CMHCs (19 of 35), 100 percent of beneficiaries were not referred
                   to PHPs by health care facilities.
                   In 2010, 21 CMHCs had unusually high percentages of
                   beneficiaries who were not evaluated by physicians during
                   their PHP participation
                   Beneficiaries at these 21 CMHCs did not have claims with HCPCS codes
                   indicating that physician services occurred during their PHP participation
                   for the entire year we reviewed. A high percentage of beneficiaries who
                   were not evaluated by physicians raises concerns about whether services
                   were medically reasonable and necessary. The percentages of such
                   beneficiaries at these 21 CMHCs ranged from 15 to 72 percent. Out of the
                   282 beneficiaries receiving PHP services at 1 CMHC in Miami-Dade
                   County, Florida, 203 were not evaluated by physicians during their PHP
                   participation.
                   In 2010, 16 CMHCs had unusually high percentages of
                   beneficiaries with no mental health diagnoses prior to
                   participating in PHPs
                   Beneficiaries must have mental disorders that severely interfere with
                   multiple areas of their daily lives, including social, vocational, and/or
                   educational functioning. The absence of prior inpatient treatment or
                   physician visits for a mental disorder raises concerns about whether PHP
                   services were medically reasonable and necessary. The percentages of
                   such beneficiaries at these 16 CMHCs ranged from 10 to 24 percent.
                   In 2010, 15 CMHCs had unusually high percentages of
                   beneficiaries who participated in PHPs at CMHCs outside their
                   communities
                   A high percentage of beneficiaries that participated in PHPs at CMHCs
                   outside their communities are a concern because the CMHCs may be
                   offering financial kickbacks, obtaining beneficiary Medicare numbers and
                   billing for services that were not provided, or providing PHP services that
                   are not reasonable or necessary. The percentages of such beneficiaries at
                   these 15 CMHCs ranged from 15 to 72 percent. One of these CMHCs, in
                   Broward County, Florida, billed for a beneficiary who resided in Maui
                   County, Hawaii–over 4,000 miles away. The other 77 beneficiaries at this
                   CMHC resided an average of nearly 550 miles away.
                   In 2010, 15 CMHCs met or exceeded thresholds that indicated
                   questionable billing for other characteristics
                   Fifteen CMHCs met or exceeded thresholds that indicated questionable
                   billing for at least one of the other four characteristics we developed.

Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                      15
                   These characteristics were the percentages of beneficiaries who (1)
                   participated in PHPs at other CMHCs, (2) had inappropriate diagnoses for
                   participation in PHPs, (3) had long durations of PHP participation, and (4)
                   were readmitted to inpatient treatment.
                   Participation in PHPs at Other CMHCs. Five CMHCs had unusually
                   high percentages of beneficiaries who participated in PHPs at more than
                   one CMHC. This may indicate that CMHCs have shared beneficiaries.
                   Additionally, this raises concerns about whether the PHP services were
                   medically reasonable and necessary and whether the services were
                   provided. Three of these five CMHCs had beneficiaries who participated
                   in PHPs at five different CMHCs during 2010.
                   Cognitive Disorders During PHP Participation. Four CMHCs had
                   unusually high percentages of beneficiaries with cognitive disorders (e.g.,
                   Alzheimer’s disease or severe dementia) who participated in PHPs. This
                   may indicate that these CMHCs inappropriately billed for services that are
                   not medically reasonable or necessary. Of the 140 beneficiaries served by
                   these 4 CMHCs, 61 percent (85 beneficiaries) had dementia and
                   31 percent (43 beneficiaries) had Alzheimer’s disease diagnoses.
                   Long Durations of PHP Participation. Three CMHCs had unusually high
                   percentages of beneficiaries who had long durations (i.e., over 147 days)
                   of PHP participation. This may indicate that the CMHCs are providing
                   PHP services that are not medically reasonable or necessary. One of these
                   CMHCs had three beneficiaries who received PHP services for almost the
                   entire year (362 days).
                   Readmission to Inpatient Treatment. Three CMHCs had unusually high
                   percentages of beneficiaries who were readmitted to inpatient treatment
                   after PHP participation. This may indicate that the CMHCs are providing
                   PHP services that are not preventing relapse and hospitalization, as
                   intended. The percentages of beneficiaries who were readmitted to
                   inpatient treatment and then returned to these three CMHCs ranged from
                   30 to 55 percent.

                   Approximately two-thirds of CMHCs with
                   questionable billing were located in eight
                   metropolitan areas
                   In 2010, 8 of 11 metropolitan areas with at least 3 CMHCs had higher
                   percentages of CMHCs with questionable billing than the national




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                   16
                   percentage.65 The percentages in these metropolitan areas ranged from
                   61 to 100 percent, compared to the national percentage of 52 percent.
                   These metropolitan areas made up 69 percent (70 of 102) of all CMHCs
                   with questionable billing. All were located in Florida, Louisiana, and
                   Texas. Table 3 shows the number and percentage of CMHCs in these
                   eight areas. The remaining 26 CMHCs with questionable billing were
                   dispersed among 22 other metropolitan areas.

                 Table 3: Metropolitan Areas With a Higher Percentage of CMHCs With
                 Questionable Billing Than the National Percentage, 2010
                                               Number of CMHCs                               Percentage of CMHCs
                                               With Questionable        Total Number of          With Questionable
                   Metropolitan Area                      Billing                CMHCs                      Billing
                   Jacksonville, FL                             3                       3                    100%
                   Houston, TX                                 13                      16                     81%
                   Tampa, FL                                    5                       7                     71%
                   Lafayette, LA                                2                       3                     67%
                   San Antonio, TX                              2                       3                     67%
                   Houma, LA*                                   2                       3                     67%
                   Miami, FL                                   32                      52                     62%
                   Baton Rouge, LA                             11                      18                     61%
                     Total                                     70                    102                      69%
                     National                                 102                    195                      52%
                   *Indicates Houma-Bayou Cane-Thibodaux metropolitan area.

                   Source: OIG analysis of 2009 and 2010 Medicare PHP, physician, and inpatient claims. 



                   The Miami metropolitan area had a higher percentage of CMHCs with
                   questionable billing than the national percentage for six of the nine
                   characteristics. The Baton Rouge metropolitan area had a higher
                   percentage of CMHCs with questionable billing than the national
                   percentage for five of the nine characteristics. See Appendix D for
                   additional information about these eight metropolitan areas by
                   characteristic.66

                   Ninety percent of CMHCs with questionable billing
                   were in States that do not require CMHCs to be
                   licensed or certified
                   In 2010, approximately half (13 of 24) of States with CMHCs did not
                   require CMHCs to be licensed or certified. Most (167 of 195) of the
                   CMHCs and the majority (92 of 102) of CMHCs with questionable billing
                   were located in these States.



                   65
                     Of the 102 CMHCs with questionable billing, 96 were located in 31 metropolitan areas, 4
                   were located in micropolitan areas (a core urban area with between 10,000 and 50,000
                   people), and 2 were located in rural areas. However, this analysis focused on the 11
                   metropolitan areas that had at least 3 CMHCs.
                   66
                     The other three metropolitan areas included in this analysis were New Orleans, Boston, and
                   Shreveport.


Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                       17
                   Approximately half (92 of 167) of CMHCs in States that did not require
                   CMHCs to be licensed or certified had questionable billing, and
                   approximately one-third (10 of 28) of CMHCs in other States had
                   questionable billing. Further, States that require CMHCs to be licensed or
                   certified had no CMHCs with questionable billing for five of the nine
                   questionable billing characteristics. Table 4 compares CMHCs with
                   questionable billing in States with and without licensure and certification
                   requirements by characteristic.
Table 4: CMHCs With Questionable Billing Characteristics by State Licensure or
Certification Requirements, 2010
                                        States With Licensure/Certification    States Without Licensure/Certification
                                         Total CMHCs         Percentage of          Total CMHCs        Percentage of
                                                  With        CMHCs With                     With       CMHCs With
                                        Questionable         Questionable          Questionable         Questionable
Questionable Billing Characteristic             Billing      Billing (N=28)                Billing    Billing (N=167)
Beneficiaries who received only group
psychotherapy during their PHP
participation                                        7                 25%                      36                 22%
Beneficiaries who were not referred to
PHPs by health care facilities                       5                 18%                      30              `18%
Beneficiaries who were not evaluated
by physicians during their PHP
participation                                        1                   4%                     20                 12%
Beneficiaries with no mental health
diagnoses prior to participating in PHP              0                   0%                     16                 10%
Beneficiaries who participated in PHPs
at CMHCs outside their communities                   0                   0%                     15                 9%
Beneficiaries who participated in PHPs
at more than one CMHC                                0                   0%                      5                 3%
Beneficiaries with cognitive disorders
who participated in PHPs                             1                   4%                      3                 2%
Beneficiaries with long durations of
PHP participation                                    0                   0%                      3                 2%
Beneficiaries who were readmitted to
inpatient treatment                                  0                   0%                      3                  2%
  Total*                                            10                 36%                      92                 55%
*The columns do not sum to the totals because some CMHCs met or exceeded the threshold for more than one 

characteristic. 

Sources: OIG analysis of 2009 and 2010 Medicare PHP, physician, and inpatient claims and State Web sites.





Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                     18
                   CONCLUSION AND RECOMMENDATIONS
                   In 2010, Medicare paid approximately $218.6 million to 206 CMHCs for
                   PHP services. Past OIG studies have found vulnerabilities in Medicare
                   payments to CMHCs for PHPs. Additionally, in 2011, four CMHC
                   owners and managers in Miami-Dade County, Florida, were convicted of
                   fraudulently billing Medicare approximately $200 million for medically
                   unnecessary PHP services from 2002 to 2010.
                   Approximately half of CMHCs had questionable billing for at least one of
                   the nine OIG characteristics we reviewed. Approximately one-third of the
                   CMHCs with questionable billing met or exceeded the threshold for at
                   least two of the nine characteristics. The presence of these characteristics
                   raises questions about the appropriateness of the PHP claims submitted by
                   these CMHCs. However, we did not conduct a medical record review to
                   determine whether the services billed by CMHCs were fraudulent.
                   Additionally, 8 of 11 metropolitan areas with at least 3 CMHCs had higher
                   percentages of CMHCs with questionable billing than the national
                   percentage. Finally, 90 percent of the CMHCs with questionable billing
                   were located in States that do not require CMHCs to be licensed or
                   certified. All eight metropolitan areas with a higher percentage of CMHCs
                   with questionable billing than the national percentage were located in
                   these States.
                   Collectively, these findings identify specific vulnerabilities in Medicare
                   payments to CMHCs for PHPs that should be addressed to safeguard the
                   Medicare program.
                   We recommend that CMS:
                   Increase its monitoring of CMHCs’ Medicare Billing and Fraud
                   Prevention Controls
                   When using its predictive analytics system to identify CMHCs with high
                   fraud risk scores, CMS should consider, at a minimum, including the OIG
                   questionable billing characteristics used in this evaluation. Further, to
                   increase fraud prevention controls, CMS should instruct MACs to develop
                   and implement national claims processing edits based on these
                   characteristics, as appropriate. For example, edits can be developed or
                   expanded to check for beneficiaries with cognitive disorders.
                   Additionally, CMS should instruct ZPICs in the identified eight
                   metropolitan areas to monitor CMHCs’ billing for PHPs using, at a
                   minimum, these characteristics.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                       19
                   Enforce the Requirement That Certifying Physicians Be Listed
                   on the PHP Claims Submitted by CMHCs
                   Beneficiaries admitted to PHPs must be under the care of physicians who
                   certify the need for PHP services. CMS should enforce the Medicare
                   Claims Processing Manual requirement that the certifying physician be
                   listed on the PHP claim submitted by CMHCs. This provides additional
                   information for CMS to use to verify whether the PHP services billed by
                   CMHCs were medically reasonable and necessary.
                   Finalize and Implement the Proposed CoPs for CMHCs
                   CMS should finalize its proposed CoPs for CMHCs and implement them
                   as soon as possible. Without them, the Medicare program has limited
                   ability to oversee the quality, health, and safety of care provided in
                   CMHCs. In States that oversee CMHCs through licensure or certification
                   requirements, CMHCs had lower rates of questionable billing compared to
                   rates in States with no licensure or certification requirements. Similarly,
                   CoPs can help to ensure that all CMHCs are subject to a consistent level of
                   oversight.
                   Furthermore, after finalizing the CoPs for CMHCs, CMS should establish
                   an appropriate minimum survey cycle to verify CMHCs’ compliance with
                   the CoPs. In doing so, CMS should consider seeking statutory authority, if
                   necessary, to grant deeming authority to accreditation organizations. This
                   can assist CMS in ensuring that CMHCs are surveyed according to the
                   established survey cycle.
                   Review and Take Appropriate Action Against CMHCs With
                   Questionable Billing
                   In a separate memorandum, we will refer the CMHCs with questionable
                   billing that we identified to CMS for appropriate action. CMS could
                   determine whether the services billed by these CMHCs were inappropriate
                   or fraudulent by conducting medical record reviews; conducting site visits,
                   particularly in States that do not require CMHCs to be licensed or
                   certified; implementing prepay reviews; or referring CMHCs to law
                   enforcement for investigation.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                   20
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all four of our recommendations and provided
                   information about its efforts to address vulnerabilities in Medicare
                   payments to CMHCs for PHPs. Specifically, CMS will provide ZPICs
                   with a copy of this report to incorporate OIG’s questionable billing
                   characteristics into their business and investigative processes as
                   appropriate. CMS will also consider incorporating these characteristics
                   into its Fraud Prevention System models. Finally, these characteristics
                   will be considered in the development of a pilot project focused on
                   CMHCs in the three highest risk States of Florida, Texas, and Louisiana.
                   With regard to the second recommendation, CMS will develop an edit in
                   the claims processing system to ensure that the certifying physicians are
                   listed on the PHP claims submitted by CMHCs.
                   With regard to the third recommendation, CMS expects to publish the
                   final rule for CMHC CoPs in the spring of 2013. CMS plans to establish a
                   5-year survey cycle to verify a CMHC’s compliance with CoPs.
                   Additionally, CMS will consider seeking statutory authority to grant
                   deeming status to accreditation organizations.
                   With regard to our fourth recommendation, CMS will share the CMHCs
                   with questionable billing identified in this report with MACs to consider
                   when prioritizing their work. CMS will also share information about these
                   CMHCs with Recovery Audit Contractors to consider as they decide
                   which claims processed by MACs to review.
                   We support CMS’s efforts to address these issues and encourage it to
                   continue making progress. For the full text of CMS’s comments, see
                   Appendix E.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                      21
                   APPENDIX A 


                        Number of Community Mental Health Centers and
                        Medicare Payments in Each State, 2010

                                                 Total
                                               Number
                                                    of
                        State                  CMHCs            Total Medicare Payment
                        Florida                    72                       $82,389,314
                        Louisiana                  57                       $60,725,138
                        Texas                      23                       $50,403,363
                        Mississippi                  4                       $6,728,693
                        Tennessee                    4                       $4,007,575
                        Massachusetts              10                        $3,192,482
                        Georgia                      3                       $2,153,531
                        North Carolina               1                       $2,135,432
                        South Carolina               1                       $1,630,377
                        California                   4                       $1,614,811
                        Alabama                      6                         $841,167
                        Michigan                     1                         $748,687
                        Arizona                      1                         $541,137
                        West Virginia                1                         $270,169
                        Connecticut                  2                         $259,370
                        Maryland                     1                         $250,238
                        New York                     1                         $177,722
                        Minnesota                    3                         $121,685
                        Illinois                     2                         $113,998
                        Nebraska                     1                         $102,492
                        Pennsylvania                 4                           $67,346
                        Utah                         1                           $55,915
                        Iowa                         1                           $49,584
                        Missouri                     1                          $16, 815
                        Puerto Rico                  1                            $1,078
                            Total                 206                     $218.6 million
                         Source: Office of Inspector General analysis of 2010 Medicare Partial
                        Hospitalization Program claims data.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                        22
                   APPENDIX B 

                     Healthcare Common Procedure Coding System Codes Used on Partial
                     Hospitalization Program Claims
                     Code                                                                            Description
                     90801 or 90802                                         Behavioral Health Treatments/Services
                     90801, 90802, 90899                                             Psychiatric General Services

                     90816, 90817, 90818,
                     90819, 90821, 90822,
                     90823, 90824, 90826,
                     90827, 90828, 90829,
                     90845, 90865, 90880                                                 Individual Psychotherapy
                     90846 or 90847                                                         Family Psychotherapy

                     96101, 96102, 96116,
                     96118, 96119, or 96120                                                    Psychiatric Testing
                     G0129                                                                  Occupational Therapy
                     G0176                                                                       Activity Therapy
                     G0410 or G0411                                                         Group Psychotherapy
                     G0177                                                                     Education Training
                   Source: Centers for Medicare & Medicaid Services, Medicare Claims Processing Manual, Pub. No.
                   100-04, ch. 4, § 260.1.1.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                      23
                   APPENDIX C 

Number of Beneficiaries With Cognitive Disorders Who Participated in Partial Hospitalization Programs,
2010
Diagnosis
Code                                                        Description        Number of Beneficiaries*
3310                                                         Alzheimer's disease                                       1,254
                   Dementia in conditions classified elsewhere without behavioral
29410                                                                disturbance                                            683
                     Dementia in conditions classified elsewhere with behavioral
29411                                                                disturbance                                            423
317                                                       Mild intellectual disabilities                                    404
2900                                                Senile dementia, uncomplicated                                          361
319                                               Unspecified intellectual disabilities                                     353
29040                                             Vascular dementia, uncomplicated                                          205
33183                                           Mild cognitive impairment, so stated                                        168
29043                                     Vascular dementia, with depressed mood                                            119
29021                                     Senile dementia with depressive features                                          115
29020                                  Senile dementia with delusional features                                             109
                      Unspecified nonpsychotic mental disorder following organic
3109                                                               brain damage                                             105
33182                                                    Dementia with Lewy bodies                                          100
29010                                            Presenile dementia, uncomplicated                                           95
29013                                  Presenile dementia with depressive features                                           77
3180                                                Moderate intellectual disabilities                                       73
2903                                                   Senile dementia with delirium                                         51
29041                                               Vascular dementia, with delirium                                         50
29042                                             Vascular dementia, with delusions                                         43
29012                                  Presenile dementia with delusional features                                           25
29011                                               Presenile dementia with delirium                                         18
2908                                     Other specified senile psychotic conditions                                         18
2909                                        Unspecified senile psychotic conditions                                          17
3181                                                   Severe intellectual disabilities                                      10
33119                                                 Other frontotemporal dementia                                         10
3182                                                 Profound intellectual disabilities                                       4
*Some beneficiaries had more than one cognitive disorder during partial hospitalization program (PHP) participation.
Sources: Centers for Medicare & Medicaid Services, Version 28 Full and Abbreviated Diagnosis Code Titles, Office of
Inspector General analysis of 2010 Medicare PHP, physician, and inpatient claims.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                              24
                            APPENDIX D 

 Percentage of Community Mental Health Centers With Questionable Billing by Metropolitan Area and
 Characteristic, 2010
 Questionable                                                                  San Baton
 Billing              National Jacksonville Houston Tampa Lafayette Antonio Rouge Houma                                Miami
 Characteristic       (N=102)        (N=3)   (N=13)   (N=5)       (N=2)      (N=2) (N=11)       (N=2)                 (N=32)
 Beneficiaries who
 received only
 group
 psychotherapy
 during their partial
 hospitalization
 program (PHP)
 participation            42%         33%      54%     20%           0%      100%        0%       0%                    53%
 Beneficiaries who
 were not referred
 to PHPs by health
 care facilities          34%        100%      85%     80%           0%         0%       0%       0%                    22%
 Beneficiaries who
 were not
 evaluated by
 physicians during
 their PHP
 participation            21%         33%       0%       0%          0%         0%     55%        0%                    25%
 Beneficiaries with
 no mental health
 diagnoses a year
 prior to
 participating in
 PHPs                     16%          0%       0%       0%          0%         0%     27%      100%                    19%
 Beneficiaries who
 participated in
 PHPs at
 community
 mental health            15%         67%       8%       0%          0%       50%      18%        0%                    16%
 centers (CMHC)
 outside their
 communities
 Beneficiaries who
 participated in
 PHPs at more
 than one CMHC             5%          0%       8%       0%          0%         0%       9%       0%                     9%
 Beneficiaries with
 cognitive
 disorders who
 participated in
 PHPs                      4%          0%       0%       0%          0%         0%       0%       0%                     6%
 Beneficiaries with
 long durations of
 PHP participation         3%          0%       8%       0%          0%         0%       9%       0%                     0%
 Beneficiaries who
 were readmitted
 to inpatient
 treatment                 3%          0%       0%       0%       100%          0%       0%       0%                     0%
Note: Bold type indicates that the percentage was greater than the national percentage. 

Source: Office of Inspector General analysis of 2009 and 2010 Medicare PHP, physician, and inpatient claims. 





     Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                                   25
                   APPENDIX E

                   Agency Comments




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)   26
 
 
 
 
 



    Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)   27
                                                                                 
 
 
 
 
 
 
 
 
 


    Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)       28
 
 




                                                                                 
 
 
 
 
 




    Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)       29
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Latrice Rollins served as the lead analyst for this study. Other principal
                   Office of Evaluation and Inspections staff from the Atlanta regional office
                   who contributed to the report include Evan Godfrey and Holly Williams;
                   central office staff who contributed include Kevin Farber, Scott Horning,
                   Sandy Khoury, Berivan Demir Neubert, and Debra Roush.




Questionable Billing by Community Mental Health Centers (OEI-04-11-00100)                     30
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
